U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 16, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ded Rranxburgaj v. Alejandro Mayorkas, Secretary
of Homeland Security, et al. S.Ct. No. 20-1010

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 22,
2021, and placed on the docket on January 27, 2021. The government’s response is due on
February 26, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 29, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1010
RRANXBURGAJ, DED
ALEJANDRO MAYORKAS, SECRETARY OF
HOMELAND SECURITY, ET AL.

NORA SAM AHMED
ACLU OF LOUISIANA
P.O. BOX 56157
NEW ORLEANS, LA 70156
504-522-0628
NAHMED@LAACLU.ORG
BEN C. FABENS-LASSEN
DLA PIPER LLP
ONE LIBERTY PLACE
1650 MARKET STREET
PHILADELPHIA, PA 19103
DOUGLAS R. MCKUSICK
THE RUTHERFORD INSTITUTE
PO BOX 7482
CHARLOTTESVILLE, VA 22906-7482
434-978-3888
DOUGLASM@RUTHERFORD.ORG
LEON RODRIGUEZ
SEYFARTH SHAW LLP
975 F STREET, N.W
WASHINGTON, DC 20004
202-828-3572
LERODRIGUEZ@SEYFARTH.COM

